DocuSign Envelope ID: 2D0C74E3-BDCD-4A22-B0A4-6EA308D99CDA

Supreme Court of the United States of America
Petition for Writ of Certiorari to the Supreme Judicial Court of the Commonwealth of Massachusetts
In the Matter of:
Joachim Carlo Santos Martillo
and
Anthony Z. Bono,
Petitioners
vs.
Unknown Defendants To Be Named,
Respondents

Certificate of Word Count
I hereby declare that the word counts of the Petition for Writ of Certiorari to the Supreme Judicial
Court of the Commonwealth of Massachusetts in the matter of: Joachim Carlo Santos Martillo and
Anthony Z. Bono, Petitioners vs. Unknown Defendants To Be Named, Respondents from and including
“Questions Presented” on page 1 through and including “Respectfully submitted” on page 19 total 4662
in the body text and 520 in the associated footnotes. Altogether the sum of the two word counts is 5182.

Dated:

1/24/2021

Respectfully submitted by
— DocuSigned by:

^----- 20693E1BA8E44AB...

Joachim Carlo Santos Martillo
Patent Agent (USPTO Registration: 76,552)
75 Bailey St. Ste. 1L
ThorsProvoni@protonmail.com
617-276-5788
Pro se

